RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 19-309
John C. Carney, Governor of Delaware,
Petitioner,
v.
James R. Adams,
Respondent.
As required by Supreme Court Rule 33.1(h), I, Virginia A. Seitz, certify that
the Brief of Amici Curiae Former Chief Justices of the Delaware Supreme Court in
Support of Petitioner in the foregoing case contains 5,269 words, excluding the parts
of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 24, 2020.
/s/ Virginia A. Seitz
VIRGINIA A. SEITZ
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

